Chris Baker
1 California, Suite 1250
San Francisco, CA 94111
tel. (415) 433-1064
cbaker@bakerlp.com
www.bakerlp.com

July 27, 2021
Via Email and U.S. Mail
Scott Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543-0001
Email c/o Laurie Gray at lgray@supremecourt.gov
Re:

Google, Inc. et. al. v. John Doe, et. al., No. 20-1744
Request for Extension of Time for Opposition to Petition for Certiorari

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondents John Doe, David Gudeman, and Paola
Correa, through their counsel of record, request a thirty-day extension (to September 8, 2021) to file
their response to the petition for certiorari in this case. The petition was filed on June 11, 2021. On
June 21, 2021, Respondents waived their right to file a response. On July 6, 2021, Respondents’
counsel went on vacation. On July 8, 2021, the Court requested a response with a due date of
August 9, 2021. On July 27, 2021, Respondents’ counsel returned from vacation.
The extension request is justified because Respondents’ counsel was on vacation when the
Court requested a response and he has only returned to the office today. The extension will help
ensure Respondents have sufficient time to prepare a cogent and complete response.
Very truly yours,

Chris Baker
cc: Paul William Cane

